SUPREME COURT OF THE UNITED STATES
x
UNITED STATES OF AMERICA,
Respondent,
-againstNAQUAN REYES,
Petitioner.

CERTIFICATE OF SERVICE
Andrew Freifeld declares under penalty of perjury, and pursuant to 28
U.S.C. ยง 1746, that the following is true and correct:
I am the attorney of record for petitioner Naquan Reyes before
the United States Court of Appeals for the Second Circuit, under the abovecaption, docket # 18-3695, having been appointed by that Court pursuant to
the Criminal Justice Act of 1964.
The only parties to this proceeding are the United States of America
and Naquan Reyes. My address is Post Office Box 3196, New York, New York
10008. My telephone number is (917) 553-6030. Counsel of record for the
United States of America is the US Attorney's Office, 271 Cadman Plaza East,
Brooklyn, New York 11201, by AUSA Kevin Trowel, telephone number 718254-7000.
On October 6, 2020, I complied with Supreme Court Rules 29.3,
29.4(a) and 33.2 by serving upon all parties to this proceeding and the Solicitor
General of the United States the enclosed petition for a writ of certiorari with
1

exhibits, along with petitioner's notice of motion for leave to proceed in forma
pauperis to which it is attached, by placing a copy of each in three sealed
envelopes, and delivering the envelopes to the custody of the United States
Postal Service with at least adequate first-class postage affixed on each. Each
envelope had one of the three following addresses also affixed:
Naquan Reyes,
Reg. No. 83464-053
USP Lee
United States Penitentiary
PO Box 305
Jonesville,VA 24263
-andUS Attorney's Office
271 Cadman Plaza East
Brooklyn, New York 11201
Attention: AUSA Kevin Trowel
-andSolicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave. NW
Washington DC, 20530-0001
4. I will further comply with Supreme Court Rule 29.3 by reasonably
contemporaneously herewith transmitting an electronic copy of the enclosed
documents to AUSA Trowel, Assistant United States Attorney to the counsel

2

of record for the United States of America, as identified supra, at paragraph 2..

DATED: New York, New York
October 6, 2020
Andrew Freifeld
PO Box 3196
New York, New York 10008
Tel: (917) 553-6030

3

